Audit of USAID/Bosnia-Herzegovina’s Business
Development Program


Audit Report No. B-168-03-003-P

June 26, 2003




      U.S. Agency for International Development
                 Budapest, Hungary
June 26, 2003

MEMORANDUM
FOR:            USAID/Bosnia-Herzegovina, Mission Director, Howard Sumka

FROM:           Director of Audit Operations, RIG/Budapest, Nathan S. Lokos /s/

SUBJECT:        Audit of USAID/Bosnia-Herzegovina’s Business Development
                Program (Report No. B-168-03-003-P)

This is our final report on the subject audit. This report presents the results of our
Audit of USAID/Bosnia-Herzegovina’s Business Development Program. Our audit
was designed to determine the status of USAID/Bosnia-Herzegovina’s
(USAID/BiH) Business Development Program (BDP) and the extent to which the
Mission monitored the program. While we found that USAID/BiH was generally
monitoring the implementation of the BDP; we also found that some of that
monitoring could be strengthened.          Therefore, this report contains five
recommendations.

We consider that management decision were made and final action taken on all
five recommendations.

We appreciate the cooperation and assistance provided to the auditors on
this assignment.




                                                                       Page 1 of 26
Table of   Summary of Results                                                      4
Contents   Background                                                              4
           Audit Objectives                                                        6

                  What is the status of USAID/Bosnia-Herzegovina’s
                  Business Development Program?

                  Has USAID/Bosnia-Herzegovina monitored the Business
                  Development Program to ensure that intended results are
                  achieved?
           Audit Findings                                                          7

           USAID/Bosnia-Herzegovina Should Strengthen Controls
           Over Business Development Program Bank Accounts

                Reported Data Should Be Verified                                   12

                Cash Management Should Be Strengthened                             13

                Mission Should Strengthen Controls over Transactions               14

           USAID/Bosnia-Herzegovina Should Verify Reported Job-
           Creation Data                                                           15

           Mission Should Periodically Assess Management Controls                  17

           Cognizant Technical Officers
           Should Receive Formal Training                                          18
           Management Comments and Our Evaluation                                  19

           Appendix I - Scope and Methodology                                      20

           Appendix II - Management Comments                                       21

           Appendix III – Project Implementation Letters Authorizing
           Movement of Business Development Program Funds                          22

           Appendix IV – Bank Account 2 Activity                                   23

           Appendix V – Bank Account 3 Activity                                    24


                                                                            Page 2 of 26
Appendix VI – Bank Accounts 4 and 5 Activity          25

Appendix VII - All Workers at Business
Development Program-Supported Businesses              26




                                               Page 3 of 26
Summary of    This audit was designed to determine the status of USAID/Bosnia-Herzegovina’s
Results       (USAID/BiH) Business Development Program and whether the Mission monitored
              the program to ensure that results were achieved in accordance with Agency
              guidance.

              USAID and Central Bank of Bosnia-Herzegovina (CBBH) officials have revised,
              expanded and extended the Business Development Program to promote economic
              revitalization projects within Bosnia-Herzegovina. These projects have included,
              among other things, providing loans to both individuals and fully licensed banks,
              providing home mortgage loans, and authorizing the use of grant proceeds to fund
              technical assistance contracts (see page 7).

              USAID/BiH has generally monitored the Business Development Program to
              ensure that intended results were achieved. However, we determined that the
              Mission should strengthen its monitoring by verifying the validity and accuracy of
              the program’s bank account information (see page 12), improving its cash
              management (see page 13), verifying reported job-creation data (see page 15),
              periodically assessing its management controls (see page 17), and developing
              training plans for Cognizant Technical Officers as necessary (see page 18).

              USAID/BiH officials appreciated the cooperation and proactive communication
              with the audit staff and took final action on all of the recommendations.


 Background   In March 1992, Bosnia-Herzegovina’s move toward independence from the former
              Socialist Republic of Yugoslavia precipitated a war in the country that lasted for
              more than three years—from 1992 until the signing of the Dayton cease-fire
              agreement on October 10, 1995.




                                                                                 Page 4 of 26
(The distributed report included two maps, but because of problems in complying
with Section 508 for posting to the website, the maps and introductory sentence
have been deleted. Otherwise, the report remains the same.)




                                                                  Page 5 of 26
                   After the Dayton cease-fire agreement, the Government of Bosnia-Herzegovina
                   (GOBH) faced the challenges of keeping peace and restructuring its war-torn
                   economy. To help the GOBH meet these challenges, on March 29, 1996, House
                   Joint Resolution 170 (Public Law 104-122) appropriated $198 million for
                   assistance to Bosnia-Herzegovina in order to address concerns regarding its
                   physical and economic infrastructure.

                   USAID involvement in Bosnia-Herzegovina began in May 1996 when the
                   Assistant Administrator for the Bureau for Europe and Eurasia (E&E Bureau)1
                   authorized a five-year, $278 million Bosnian Reconstruction Finance Facility
                   (BRFF) Program.2 On May 7, 1996, the United States and Bosnia-Herzegovina
                   signed USAID Grant 168L-601 and initiated the BRFF Program, designed to
                   provide the GOBH with immediate balance of payments assistance to “jump-start
                   economic growth and generate employment opportunities for the general
                   population, including refugees and demobilized soldiers.” USAID subsequently
                   obligated and transferred $232.9 million to the Business Development Program
                   Accounts for loans and technical assistance for the Bosnian people.

                   In June 2001, Mission officials funded other initiatives to promote economic
                   revitalization projects within Bosnia-Herzegovina. As a result, USAID and Central
                   Bank of Bosnia-Herzegovina (CBBH) officials revised, expanded and extended the
                   Business Development Program.3 The program revision and expansion included,
                   among other activities, providing loans to both individuals and fully-licensed banks,
                   providing home mortgage loans, and authorizing the use of grant proceeds to fund
                   technical assistance contracts. With an extension of the program, the Mission plans
                   to transfer program resources, in phases, to the ownership and control of the GOBH
                   beginning in June 2003.



Audit Objectives   Since 1997, the USAID Office of Inspector General (OIG) has issued nine audit
                   reports on the status of the USAID/Bosnia-Herzegovina’s Business Development
                   Program.4 In accordance with its Fiscal Year 2002 audit plan, the Office of
                   Inspector General performed this audit to answer the following questions:
                   1
                     USAID’s Bureau for Europe and Eurasia was formerly named the Bureau for Europe and the
                   New Independent States.
                   2
                       In June 2001, the name changed to the Bosnia Business Development Program.
                   3
                       The CBBH worked with USAID on behalf of the Government of Bosnia-Herzegovina.
                   4
                    See Audit Report Nos. B-168-97-002-P, dated March 26, 1997; B-168-97-006-P, dated June 27,
                   1997; B-168-98-001-P, dated October 10, 1997; B-168-98-004-P, dated March 26, 1998; B-168-
                   99-001-P, dated October 30, 1998; B-168-99-004-P, dated August 18, 1999; B-168-00-004-P,
                   dated February 25, 2000; and B168-01-001-P, dated December 21, 2000. Also, see Memorandum
                   Report No. B-168-98-003-S, dated July 21, 1998.



                                                                                                Page 6 of 26
                       •   What is the status of USAID/Bosnia-Herzegovina’s Business
                           Development Program?

                       •   Has USAID/Bosnia-Herzegovina monitored the Business Development
                           Program to ensure that intended results are achieved?


                 The scope and methodology of this audit are detailed in Appendix I.



Audit Findings   What is the status of USAID/Bosnia-Herzegovina’s Business Development
                 Program?

                 As of February 28, 2002, USAID/BiH had approved 572 loans valued at $157
                 million and reported the creation of an estimated 17,432 jobs within the country.5
                 Moreover, as detailed below, USAID/BiH obligated a total of $232.9 million in
                 assistance for the Business Development Program.

                      SUMMARY OF OBLIGATIONS AND FUND TRANSFERS
                           BUSINESS DEVELOPMENT PROGRAM

                     OBLIGATING DOCUMENT                          AMOUNT                 DATE OF FUNDS
                                                                  (millions)               TRANSFER

                     Grant Agreement                                       $27.5                July 1996
                     Amendment #1                                           12.5        November 1996
                     Amendment #2                                           19.5            May 1997
                     Amendment #3                                           40.0        September 1997
                     Amendment #4                                           30.0              April 1998
                     Amendment #5                                           65.4        September 1998
                     Amendment #6                                           38.0          February 1999
                     Amendment #7                                             0.0              June 2001
                     Total Obligated and Transferred                     $232.9
                 Source: Audited USAID/BiH data


                 5
                   The Mission used a “blended rate” of the value of the Bosnian Konvertible mark (KM) currently
                 against the U.S. dollar in its reports, since the exchange rate fluctuated. As a result, historically,
                 the value of the approved loans could fluctuate accordingly.



                                                                                                     Page 7 of 26
The Business Development Program was developed and implemented under
USAID/BiH’s Strategic Objective 3.1, entitled “Recovery from Crisis.” The
$232.9 million was transferred into a separate dollar account at a U. S. bank to
provide funds for economic growth and to generate employment. Although the
program was originally developed to provide balance of payment assistance to the
GOBH through May 1, 2001, the Mission amended the program grant agreement
in June 2001 and estimated cash flows for two of the accounts.

In accordance with the program grant agreement that initiated the Business
Development Program, the Mission and the GOBH opened three program bank
accounts with the Bank of America in 1996.6 The U. S. Government transferred
grant funds in U. S. dollars, which were immediately converted to Deutsche
Marks (DM), to Account 17. The DMs were then deposited into an interest-
bearing account (Account 2) from which loans were to be provided to qualified
applicants. USAID/BiH and the CBBH jointly approved all disbursements from
Account 2. The officials also used another foreign currency account—a
Repayment Account or Account 3—established to receive loan repayments from
borrowers. 8

Seventh Grant Amendment Revises Program

On June 19, 2001, USAID/BiH and the CBBH jointly signed a seventh amendment
to the program grant agreement that revised, expanded, and extended the program.
Amendment 7 contained revisions that, among other things, changed the name of the
program from the Bosnian Reconstruction Finance Facility Program (BRFF) to the
Business Development Program, revised the program by redeploying existing
resources among existing and new activities, and extended the program. This
amendment replaced Annex 1 of the original grant agreement with “Annex 1A to
Grant Agreement” and included additional revisions that:

               •    Extended the program to allow loans not only to commercially
                    viable Bosnian enterprises, but also to fully licensed banks and to
                    individuals as prime beneficiaries;
               •    Authorized reimbursement of funds from the Separate Account 2
                    to Repayment Account 3;
               •    Authorized the return of funds to the U.S. Government;
6
    These accounts, Accounts 1, 2, and 3, are held in the Bank of America in Frankfurt, Germany.

7
    In October 2001, the program’s Deutsche Marks accounts were converted to Euro accounts.
8
  From January through May 2000, the Mission and CBBH officials made $1 million in loan
disbursements to borrowers from Account 3. However, the officials decided to discontinue
making loans from Account 3 and resumed disbursing loans from Account 2 after May 2000.




                                                                                  Page 8 of 26
                •   Permitted home mortgage loans of up to 15 years;
                •   Authorized bank lines of credit, not to exceed 7 years; and
                •   Authorized the creation and funding of a Program Trust Account—
                    Account 4—to facilitate continued funding of technical assistance
                    contracts.

Moreover, a variety of additional program guidelines were either revised or added
by Annex 1A.

Between April 2000 and March 2002, the Mission and the CBBH jointly
approved, signed, and issued 15 Project Implementation Letters (PILs), valued at
about $107 million, to provide guidance on implementing various aspects of the
Business Development Program. The chart in Appendix III summarizes the PIL
number, the source of Program account funding, the U. S. Dollar equivalent
authorized, and the purpose of the PIL.

Business Development Program Account
Balances Reflect Expanded Program

During the 26-month period from January 2000 through February 2002,
USAID/BiH and the CBBH approved disbursements from Account 2 and Account
3 that significantly impacted the combined balances of those accounts. In
addition, two new bank accounts were opened—Account 4 and Account 5. As
shown in Appendix IV, the balance of Account 2 ranged from approximately
$120 million in January 2000 to about $49 million in February 2002. During that
period, USAID/BiH and CBBH:

•      authorized the disbursement of about $19 million in loans from Account 2;

•      transferred another $19 million to other accounts for non-lending projects;

•      transferred another $40 million to a newly established Account 5; and

•      paid $1 million for a banking and account information system project.9

During this same time, Account 3 increased from $13 million to $16 million, as
shown in Appendix V. Finally, using funds transferred from both Accounts 2 and
3, the Mission opened both Account 4 and Account 5 in Calendar Year 2001.

Mission Opens Account 4 - As authorized by the Seventh Amendment to the
program grant agreement, the Mission opened a fourth account called the Program
9
    During this time, Account 2 also earned $8 million in interest.




                                                                         Page 9 of 26
Trust Fund Account or Account 4, which is owned by USAID as a trustee for the
GOBH.10 As the trustee for the GOBH, the Mission opened this account in March
2001 for the expanded programs authorized by Amendment 7.

Between March 2001 and February 2002, USAID/BiH and CBBH transferred
approximately $47 million from Accounts 2 and 3 to Account 4. During the same
time, the Mission also disbursed about $12 million from Account 4 for technical
assistance (as shown in Appendix VI). After calculating interest earned and the
impact of exchange rate fluctuations, the balance of Account 4 was about $35
million as of February 28, 2002.

Mission Opens Account 5 - In accordance with Section 4.2 of the Seventh
Amendment of the program grant agreement, the U. S. Government (USG), acting
through USAID, could require the Grantee to return any or all grant proceeds that
had not been disbursed from DM Account 2. On October 25, 2001, the USG
exercised its right to a refund of $40 million from DM Account 2. USAID/BiH
opened a Local Currency Trust Fund Account, or Account 5, with the transferred
funds11 and plans to use these funds to finance economic development activities in
Central and Eastern European countries. USAID officials planned to use the
transferred funds for programs at the American University of Bulgaria, the South
East Europe (SEE) University in Macedonia, and the Good Governance and
Ethnic Tolerance Fund for Southeast Europe. As of February 28, 2002, the
Mission had paid only $3 million to SEE, leaving a balance in the account of $36
million. (See Appendix VI for details.)


Business Development Program Achievements

As of June 30, 2002, the Mission reported that Business Finance12 had disbursed
606 loans valued at approximately $125 million13 for commercial loans, consumer
home loans, and lines of credit to banks and micro-credit organizations. At that
time, the approximate value of the loan portfolio was $49 million. Moreover—

10
     Account 4 is a Foreign Currency Trust Fund account held in Euros.
11
   USAID officials determined that the DM Account 2 funds had been previously obligated and
disbursed under the Business Development Program and were nonappropriated funds that were
not subject to certain pre-obligation requirements.

12
   Business Finance, operated by the Barents Group, is composed of a team of experienced U. S.
bankers, accountants, and Bosnian staff. Its responsibilities include reviewing and recommending
Business Development Program loan applications for USAID approval.

13
   The number of loans represents all loans—mortgage, small-medium enterprise and letters of
credit—according to an internal Mission report. The average exchange rate in June 2002 was KM
2.1 to the U.S. dollar.



                                                                              Page 10 of 26
and perhaps more importantly—the Mission also reported that the Business
Development Program had generated more than 17,000 jobs. Although the
Mission reported that the BDP generated 17,000 jobs, this figure was an estimate
only. Later in June 2002, the Mission verification showed less than 17,000 jobs
had been created (see page 16).

Mission Develops Business
Development Program Transfer Plan

After June 30, 2003, USAID/BiH plans to transfer the Business Development
Program resources to the ownership and control of the CBBH in three stages. The
transfer plan contains the methods for selling the loans and the administration of
the proceeds of loan sales and any remaining grant funds.

Loan Sales - USAID/BiH officials expect the Bosnian banks currently managing
Business Development Program loans will have the right of first refusal to
purchase those loans. The remaining loans would be sold via bids to any bank
making an acceptable offer.

Sales Method - Agent banks may be allowed to pay cash for the value of the
loans purchased or to borrow the funds and pay the loan proceeds for the value of
the Business Finance loans purchased. The Mission expects these loans to be
structured as “tier two” capital or sub-debt on bank balance sheets.

Administration - USAID/BiH officials expect that proceeds from the loan sales,
micro-credit organization line-of-credit repayments and agent bank sub-debt
repayments, as well as any remaining grant funds, will be deposited in an account
of the Central Bank of Bosnia-Herzegovina for a duration approved jointly by the
CBBH and USAID.


Has USAID/Bosnia-Herzegovina monitored the Business Development
Program to ensure that intended results are achieved?

We found that USAID/BiH had generally monitored the Business Development
Program to ensure that intended results were achieved. For example, the Mission
routinely maintained contact with Business Finance, reviewed loan control
documents being evaluated by its contractor, reviewed the contractor’s job-
creation data, and maintained contact with some of the loan recipients as well as
CBBH officials. However, we also determined that the Mission should strengthen
its monitoring by reviewing Business Development Program bank account
information, improving its cash management, periodically verifying reported job-
creation data, periodically assessing its management controls, and developing
training plans for Cognizant Technical Officers as necessary.



                                                                  Page 11 of 26
USAID/BiH Should Strengthen Controls Over
Business Development Program Bank Accounts

Reported Data Should Be Verified – USAID’s Automated Directives System
(ADS) E596.5.1a requires cognizant managers to ensure that appropriate and cost-
effective management controls are established to (1) safeguard the integrity of
programs and operations and (2) facilitate the achievement of results. Moreover,
the Standards for Internal Control in the Federal Government, issued by the U.S.
General Accounting Office, stresses that ongoing monitoring should occur in the
course of normal operations.

We found that USAID/BiH relied on its contractor, Business Finance, to review
and reconcile Business Development Program Bank Accounts 2 and 3 in order to
ensure that the Bank of America had properly recorded and reported transactions.
In addition, Business Finance performed extensive accounting services and
provided the Mission with numerous financial reports regarding the Business
Development Program accounts. However, despite the Mission’s reliance on
Business Finance and its reporting, USAID/BiH did not take steps to verify the
reported data.

According to the Mission, this absence of review occurred because USAID/BiH
relied on Business Finance—as its financial expert—to adequately review,
manage and report on the program accounts. In addition, Mission officials relied
on this contractor to ensure that they had the best available data for making
management decisions.

Although the Mission relied on data provided by Business Finance to monitor
numerous aspects of the Program, USAID/BiH did not periodically verify
reported information against source documents to ensure its accuracy. As a result,
USAID/BiH could not know the appropriate degree of reliance that could
reasonably be placed on Business Finance’s reports.

       Recommendation No. 1: We recommend that USAID/Bosnia-
       Herzegovina periodically verify the validity and accuracy of
       financial information reported by the Business Development
       Program contractor.

As a result of our audit, the Mission has already begun to review the Business
Development Program bank account information on a monthly basis and has
revised the Cognizant Technical Officer’s job description to include a work
objective requiring the monthly review of the program’s account information.
Consequently, we consider final action to have been taken on the recommendation
upon issuance of this report.

                                                                  Page 12 of 26
Cash Management Should Be Strengthened – USAID policy normally requires
that interest earned by a host country on funds disbursed under program assistance
be remitted to the U. S. Treasury. Exceptions to the policy are allowed if there is
a compelling foreign policy justification. Based on the high priority given
reconstruction and rehabilitation assistance to Bosnia-Herzegovina, the Business
Development Program grant agreement waived the requirement that the GOBH
remit such interest. In that way, the interest earned on program funds could be
used to forward the program’s development goals. USAID policy also requires
that interest earned on trust fund accounts be maximized (ADS 627.5.6). This
requirement, however, was not waived.

During 2000 and 2001, the Business Development Program Bank Accounts 2, 3,
4 and 5 had no less than $130 million combined on deposit at any one time.
Moreover, the accounts earned more than $9 million of interest and paid more
than $75,000 in bank fees for the administration of the accounts. The Bank of
America paid interest on these four accounts at a lower “overnight” rate instead of
a higher “time deposit” rate. The overnight rate can fluctuate daily and is usually
the lowest rate that a bank pays on any given date. By contrast, time deposit
rates, which are usually higher, are paid on funds that can be left on deposit for
longer periods of time, such as 30 days, 90 days or longer.

Mission officials indicated that an overnight rate had been desirable because the
Business Development Program account funds needed to be available for
withdrawal on a daily basis. Moreover, because of Business Finance’s banking
and financial expertise, Mission officials had relied on Business Finance to advise
them and the CBBH on important matters, such as interest and bank fees. In
contrast, Business Finance believed that USAID and the Government of Bosnia-
Herzegovina were responsible for these aspects of funds management. Finally,
Mission officials noted that they believed that the Government of Bosnia-
Herzegovina, as grantee, was ultimately responsible.

Although USAID/BiH needed some program funds available on a daily basis, the
Mission did not need all of the funds available as evidenced by the large account
balances, balances which did not fall below $130 million combined. Since the
retention of interest was an important part of the program grant agreement, we
believe that had the Mission monitored the Business Development Program
monthly account balances, interest earned, and fees paid more closely, such
monitoring would have helped to maximize the amount of interest earned and the
total amount of funds available for grant purposes. For example, a single
percentage point increase in the interest rate would equate to approximately $2.6
million of additional interest over two years. Accordingly, we are making the
following recommendation:

       Recommendation No. 2: We recommend that USAID/Bosnia-
       Herzegovina assess the available banking options so as to

                                                                   Page 13 of 26
           maximize the interest earned and minimize the fees paid by the
           Business Development Program bank accounts, while
           maintaining appropriate liquidity.

In response to our concerns, USAID/BiH contacted the Bank of America to
renegotiate the program’s bank fees during our audit. However, the bank refused
to decrease its fees for administering the program bank accounts. Nevertheless,
during the past several months, the Mission has worked with Bank of America to
maximize the interest earned on the accounts. For example, on a monthly basis
since the beginning of our audit, the Mission Controller has communicated with
bank officials to evaluate the interest earned on the program accounts. We
believe that the Mission is making appropriate efforts to minimize the fees
assessed to, and maximize the interest earned on, the Business Development
Program accounts. Accordingly, we consider final action has been taken on the
recommendation as of the date of this report.


Mission Should Strengthen Controls Over Transactions - ADS 596.3.1
requires managers to employ control activities that, among other functions,
safeguard assets, and properly record and account for expenditures. In September
2000, USAID/BiH and the CBBH modified one aspect of the Business
Development Program’s lending policies to include a home mortgage lending
facility. While we found that the Mission performed a supervisory review of the
initial loan documentation to effect a disbursement, it did not review the final loan
recommendation packages.

The Mission implemented a pilot program in November 2000 that provided 43
USAID, U. S. Embassy Sarajevo, nongovernmental and international organization
Bosnian employees with home loans valued at approximately $1.2 million. The
Mission’s Controller’s Office began the disbursement process for these loans with
the Central Bank of Bosnia-Herzegovina, the Bank of America, and the Micro
Enterprise Bank using a pre-approval Consumer Home Loan Recommendation
document.

Although the Mission Controller14 reviewed control documents from Business
Finance, CBBH, and the Bank of America, Mission officials authorized the
disbursement of loan funds without the benefit of reviewing any final loan approval
documentation. USAID/BiH did not require Business Finance to complete a final
approved loan recommendation package after a prospective borrower completed
additional essential loan requirements regarding the property to be purchased. Such
property details included the type of property, seller and owner information, and
registered deed information. Although Business Finance files contained some of this
14
     The Controller was a U. S. Personal Services Contractor.




                                                                     Page 14 of 26
pertinent information offsite, USAID/BiH officials did not review that
documentation before initiating the final approval to disburse the home loan funds to
borrowers. Without supervisory review of final loan documentation before
disbursement, we believe the Mission was lacking the necessary assurance that loans
disbursed to borrowers met all of the established criteria.

The pilot program ended seven months after it began in June 2001. As a result,
we are not making a recommendation to address this issue.


USAID/Bosnia-Herzegovina Should
Verify Reported Job-Creation Data

USAID guidance states that sound decisions require accurate, current and reliable
information.15 Moreover, while initial estimates may be necessary for making
decisions at the beginning of a program, we believe that, once available, actual
historical data—used to either supplement or supplant initial estimates—is highly
valuable in making good management decisions.

In its May 1998 contract with USAID’s contractor, Business Finance, Mission
officials highlighted that the primary objective of the Business Development
Program was to increase sustainable employment in Bosnia-Herzegovina.
Appropriately, when submitting loan applications, prospective borrowers were
required to provide estimates of how many jobs would be created as a result of the
proposed loan. However, despite the program’s emphasis on sustainable job
creation, USAID/BiH did not require its contractor to follow up on these
estimates to determine (1) how many jobs were actually created and (2) whether
the created jobs were indeed sustained.

According to USAID/BiH officials, job-creation data was typically not verified or
updated after a loan was approved because Mission officials believed that their
highest priority was disbursing loan funds to as many qualified applicants as
possible. In fact, even though Business Finance implemented a monitoring plan
under which its staff made site visits to borrowers, the Mission did not require
that Business Finance update the job-creation estimates originally submitted in
those borrowers’ loan applications.16
15
  USAID’s Performance and Monitoring and Evaluation TIPS No. 12 provides guidance on the
Agency’s criteria and procedures for ensuring the quality of indicators and data for performance
monitoring.
16
   In our Audit Report No. B-168-01-001-P, we reported that— in response to one of our previous
recommendations—Business Finance had initiated a monthly borrower contact-monitoring plan to
track and report on site visits and other forms of contacts. As of December 2000, Business
Finance had averaged over 400 site visits per month.




                                                                              Page 15 of 26
                        EMPLOYMENT VERIFICATION UPDATE

                  Estimate of Full-Time Jobs to
     Business       Be Created in Business
     Finance      Development Program Loan                Owner’s Estimate of Full-Time
      Office           Recommendations                      Workers Actually Hired

Banja Luka                      1,052                                     977

Mostar                           179                                      187

Problem
Loans                           7,733                                     684

Sarajevo                        4,711                                    4,095

Tuzla                           3,757                                    3,212

Totals                          17,432                                   9,155


Source: Unaudited USAID/BiH data

Our tests of ten borrowers showed that their initial job-creation estimates had not
been verified after loans were approved. In fact, our testing showed a wide
variation of both over and under reporting of the number of jobs created. Based
on these initial results, Mission officials requested that Business Finance verify
the Business Development Program borrower employment figures. Business
Finance’s report of verified job-creation statistics indicated that actual
employment figures totaled 9,155 full-time jobs created by the program—a
decrease of 8,277 created or about 47 percent—less than the 17,432 full-time jobs
previously reported based on initial estimates.17 It is important that USAID
decision-makers have this type of accurate and reliable data for making
management decisions. Without such data, USAID managers face heightened
risk that they will not make the best decisions concerning the Business


17
   Business Finance reported that 40 companies were classified as “out of business,” including
eight that refused to cooperate. Consequently, its report did not include jobs that may have been
created at the companies that went out of business. However, the fact that 32 of these 40
companies no longer existed seems to indicate that the jobs created at these firms were not
sustainable. It should be noted that Business Finance’s reported figure of 9,155 jobs created by
the Business Development Program could be understated by the jobs created at the eight
companies that refused to cooperate with the contractor. A schedule of all workers at Business
Development Program-supported businesses is presented in Appendix VII.




                                                                                Page 16 of 26
Development Program.               Accordingly,       we    are    making     the    following
recommendation:

        Recommendation No. 3: We recommend that USAID/Bosnia-
        Herzegovina require that Business Finance, its Business
        Development Program contractor, (1) verify job-creation data
        for approved Business Development Program loans and (2)
        report on the verified number of jobs created.

We consider Business Finance’s recent verification of Business Development
Program loan and employment data as the final action necessary on this
recommendation as of the date of this report.


Mission Should Periodically
Assess Management Controls

ADS 596.3.2 states that managers must continuously assess and improve the
effectiveness of their missions’ management controls using a variety of
information sources to, in part, assess the controls and identify deficiencies.
Moreover, ADS 596.3.3.2 requires that each USAID mission establish a
Management Control Review Committee (MCRC) to oversee that mission’s
management controls.

Accordingly, USAID/BiH issued Mission Order Number 1203, which established,
among other things, the Mission’s MCRC. This mission order stated that the
MCRC has responsibility for ensuring the adequacy and effectiveness of the
Mission’s management controls and is required to periodically meet—at least
quarterly—to assess and monitor its management control weaknesses.
Unfortunately, the Mission had not conducted any MCRC meetings until May
2002. While Mission officials were unable to tell us why the required quarterly
meetings were not held, one official did state that the MCRC had met formally to
conduct the annual Federal Managers Financial Integrity Act (FMFIA) review.

Although USAID/BiH did not report any material internal control weaknesses in
its Fiscal Years 1999, 2000 and 2001 FMFIA18 certifications, Mission managers
had identified potential internal control weaknesses. During these periods, one
Mission official stated that whereas USAID/BiH generally complied with FMFIA
requirements in 2001, USAID/BiH did not conduct the required quarterly MCRC
meetings. We believe that such meetings are key in helping to ensure that minor
18
   The Federal Manager’s Financial Integrity Act (FMFIA) requires that the heads of U.S.
Government agencies provide the President with an annual certification concerning the adequacy
of their internal controls. As part of the annual FMFIA process in USAID, each mission director
provides an annual certification regarding that mission’s internal controls to Bureau management.




                                                                               Page 17 of 26
internal control problems are addressed before they become more serious major
internal control weaknesses. Consequently, we are making the following
recommendation:

       Recommendation No. 4: We recommend that USAID/Bosnia-
       Herzegovina conduct quarterly Management Control and
       Review Committee meetings.

USAID/BiH reports that it has commenced quarterly MCRC meetings. As a
result, the OIG considers that final action has been taken on this recommendation
as of the date of this report.


Cognizant Technical Officers
Should Receive Formal Training

ADS 202.3.4.3c notes that there may be situations where an individual who is not
a certified Cognizant Technical Officer (CTO) is—nevertheless—nominated to
serve in that role. In such cases, the ADS states that the mission must develop a
written plan that allows that individual to receive the required training as quickly
as possible in order to obtain the necessary competencies and subsequent
certification as a CTO.

When the former CTO for the Business Finance contract was reassigned to
USAID headquarters in Washington, D.C., one of the Business Development
Program project management specialists assumed the role of CTO. Shortly
thereafter, the cognizant contracting officer officially designated that project
management specialist as the Business Development Program CTO. Although
the current CTO is highly capable and knowledgeable about the components of
the program, the Mission has not developed a plan to ensure that she receives the
required training.

According to Mission officials, USAID/BiH was unable to ensure that the
designated CTO receive the required training because of an increased workload
and other competing priorities. Moreover, we believe that Mission officials did
not develop the requisite training plan because they were unaware of this
requirement.

USAID CTOs perform important contract-related duties, such as monitoring the
performance of USAID contractors. Without the required training, USAID/BiH
faces the heightened risk that the Business Development Program CTO may not
be properly equipped to perform his or her required duties, duties which help
ensure that USAID receives the highest level of performance from its contractors.

Shortly after our audit fieldwork, the CTO for the Business Development Program


                                                                    Page 18 of 26
                 received her first formal class of CTO training. However, to ensure that this and
                 other Mission CTOs are fully equipped to perform their duties, we are making the
                 following recommendation:

                        Recommendation No. 5: We recommend that USAID/Bosnia-
                        Herzegovina (1) identify Cognizant Technical Officers who are
                        not certified and (2) develop training plans to ensure that those
                        Cognizant Technical Officers are provided the required
                        training.

                 As of February 2003, the Mission developed a formal training plan for its CTOs.
                 In particular, the Business Development Program CTO has successfully
                 completed four formal acquisition and assistance classes. Therefore, the OIG
                 considers that the Mission has taken final action on this recommendation as of the
                 date of this report.



Management       USAID/BiH officials appreciated the cooperation and proactive communication
Comments and     with the audit staff and took final action on all of the recommendations. Their
Our Evaluation   comments are included as Appendix II of this report.




                                                                                   Page 19 of 26
                                                                                     Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/Budapest conducted this audit in accordance with
              generally accepted government auditing standards, to determine the status of
              USAID/Bosnia-Herzegovina’s Business Development Program and the extent to
              which the Mission monitored the program to ensure that intended program results
              were achieved.

              The audit focused primarily on program activities conducted from April 1, 2000 to
              February 28, 2002 at various locations within the country. The program activities
              were valued at approximately $233 million, with approximately $107 million
              authorized for expenditures during this time frame. These activities related to
              USAID/Bosnia-Herzegovina’s Strategic Objective Number 3.1, entitled “Recovery
              from Crisis.” During the audit we examined the Mission’s pertinent management
              controls including—but not limited to—Mission policies and procedures,
              monitoring practices and supervisory review. In addition, we also considered
              relevant findings from prior audits.

              Methodology

              In answering the audit objective, we reviewed (1) USAID/Bosnia-Herzegovina’s
              Business Development Program bank account data and contractor financial reports;
              (2) contractor job-creation data; (3) the Mission’s guidance and internal control
              assessments required under the Federal Managers’ Financial Integrity Act; (4)
              external evaluations and assessments of program activities; and (5) progress and
              activity reports prepared by Mission and contractor officials. We also determined
              the Mission’s compliance with the criteria applicable to this audit contained in (1)
              USAID’s Grant No. 168L-601 and its amendments, Automated Directives System
              Chapters 201, 202, 596, and 627; (2) contract and grant agreements; and (3)
              USAID/Bosnia-Herzegovina’s Mission Orders.

              Furthermore, we interviewed cognizant Mission and Business Finance officials to
              determine the extent to which Mission officials used and verified contractor data
              on Business Development Program bank accounts, as well as the extent to which
              the Mission used statistical data such as the job-creation estimates to assess the
              impact and effectiveness of USAID/Bosnia-Herzegovina’s monitoring of the
              program and achievement of results.

              Finally, we conducted field trips to selected activity sites to interview program
              loan recipients and review and update reported business job statistics to assess the
              recipient’s progress towards accomplishment of planned results and the strategic
              objective.


                                                                                  Page 20 of 26
                                                                                          Appendix II


Management
Comments



                  United States Agency for International Development
                                 Sarajevo, Bosnia and Herzegovina



June 17, 2003


From: USAID/Bosnia-Herzegovina, Mission Director, Howard Sumka           /s/

To: Director of Audit Operations, RIG/Budapest, Nathan S. Lokos

Subject: Comments to audit of USAID/Bosnia-Herzegovina’s Business Development Program
(Report No. B-168-03-XXX-P)




Mission appreciates the cooperation and the pro active communication provided during the course of the
audit. The open interaction between the parties facilitated and enhanced the process and brought the
findings to satisfactory resolutions.

The Mission and the RIG audit team worked interactively and as a result addressed all the findings and
the 5 recommendations. Since all actions have been taken by the Mission as it pertains to the
5 recommendations we therefore request that the recommendations be closed upon issuance of the BDP
Audit Report.




     USAID/Bosnia-Herzegovina, AmEmbassy Sarajevo, Dept. Of State, Washington DC 20521-7130
                                Phone Number: 387-33-61-92-11


                                                                                        Page 21 of 26
                                                                                                  Appendix III



                        Project Implementation Letters (PILs) Authorizing
                       Movement of Business Development Program Funds

PIL       Date        Source          *Funds                                 Purpose
No                    Account        Authorized

14        6-Apr-00               2                  Resumption-Account 2 (Deutsche Mark account) for loans
                                                    Central Bank of Bosnia-Herzegovina (CBBH)
15        13-Jul-00              3           $5.2   Clearinghouse & Settlement Systems
16        13-Jul-00              3            5.2   Federation BiH Deposit Insurance Agency
17              n/a                                 This PIL was never issued.
                                                    Modification for Consumer Home Loan Program ($8.3
18       12-Sep-00                                  million budgeted from Acct.2)
19       31-Jan-01               3           10.0   Barents costs Feb.-Sept.30, 2001 (8 months)
20       20-Mar-01               3            6.5   Business Consulting costs
         20-Mar-01               3            2.0   Technical Assistance costs-Barents (Bank Supervision)
         20-Mar-01               3            1.0   Technical Assistance contractor costs (CBBH)
21       22-Mar-01               3            1.6   Bosnia-Herzegovina Federal Bank Hq. office space costs

22        2-Aug-01               2           10.0   Business Finance costs (Sept. 01-July '02)

23        19-Jul-01              3           13.4   Minority return infrastructure
                                              3.0   Support/improvement of state institutions
                                                    Modification of lending policy for microcredit organization
24        2-Aug-01                                  (1-7 years)
                                                    Banking and Accounting Info System (CBBH Technical
25       29-Aug-01               2            1.0   Assistance costs)
                                                    USAID Bosnia Reconstruction Finance Facility
26        4-Sep-01               2            1.0   management costs (Sept. 2001-Sept. 2004)
27        9-Oct-01               2           40.0   Transfer to U.S. Govrenment (Account 5)
28       18-Dec-01                                  Change base interest rate to Euros from LIBOR
                                                    Increase ongoing lending to private sector (balance-
29       19-Mar-02               2            7.1   Consumer Home Lending Program

      TOTAL*                               $107.0


                                                    Business Development Program Projects
                                                    *US Dollars in millions

Source: Audited USAID/BiH data




                                                                                                 Page 22 of 26
                                                                      Appendix IV




Bank Account 2 Activity (in millions)


Year 2000
Beginning balance on January 1                                          $120
Less disbursements to borrowers (and related fees)                        (5)
Plus interest earned on the account balance                                 4
Balance at December 31                                                  $119


Year 2001
Less disbursements to borrowers (and related fees)                       (13)
Less transfer to Bank Account 3                                           (8)
Less two transfers to Bank Account 4                                     (11)
Less transfer to Bank Account 5                                          (40)
Less payment for Banking and Accounting Information System Project        (1)
Plus interest earned on the account balance                                 4
Balance at December 31                                                   $50


Year 2002
Less disbursements to borrowers and related fees                          (1)
Balance at February 28                                                   $49




Note: Account 2 is a euro account (foreign currency account)
Source: USAID’s contractor, Business Finance




                                                                     Page 23 of 26
                                                                  Appendix V



Bank Account 3 Activity (in millions)


Year 2000
Beginning balance on January 1                                      $13
Less disbursements to borrowers (and related fees)                   (1)
Plus principal and interest payments received from borrowers         21
Less payment to Centralna Banka                                      (5)
Less two payments to Federal Deposit Insurance Agency                (5)
Plus interest earned on the account balance                            1
Balance at December 31                                              $24


Year 2001
Plus principal and interest payments received from borrowers         18
Plus transfer from Bank Account 2                                      8
Less three transfers to Bank Account 4                              (36)
Less payment to the Federation Banking Agency                        (1)
Plus interest earned on the account balance                            1
Balance at December 31                                              $14


Year 2002
Plus principal and interest payments received from borrowers           2
Balance at February 28                                              $16




Note: Account 3 is a euro account (foreign currency account).

Source: USAID’s contractor, Business Finance




                                                                Page 24 of 26
                                                                             Appendix VI



Bank Account 4 Activity (in millions)


Years 2001 and 2002 (the account was opened in March 2001)
Beginning balance on January 1, 2001                                             $0
Plus two transfers from Bank Account 2                                           11
Plus three transfers from Bank Account 3                                         36
Less disbursements to contractor, Barents Group                                  (9)
Less disbursements to contractor, Deloitte & Touche, Ltd                         (3)
Plus interest earned on the account balance                                        1
Decrease due to currency rate fluctuations                                       (1)
Balance at February 28, 2002                                                    $35




Bank Account 5 Activity (in millions)


Years 2001 and 2002 (the account was opened in October 2001)
Beginning balance on January 1, 2001                                             $0
Plus transfer from Bank Account 2                                                40
Less disbursement for the South East Europe (SEE) University in Macedonia        (3)
Decrease due to currency rate fluctuations                                       (1)
Balance at February 28, 2002                                                    $36




Note: Accounts 4 and 5 are euro accounts (foreign currency accounts).

Source: USAID/Bosnia-Herzegovina




                                                                            Page 25 of 26
                                                                                                             Appendix VII


All Workers at Business Development Program-Supported Businesses
     (Includes both Business Development Program-created and pre-existing jobs)




         25%                          Employment by Sectors

         20%


         15%


         10%


          5%


          0%
                            g




                                                                                                         s
                                                       ts
                                     n
                    .




                                                                                 g
                                                                    ry
                          in




                                                                                                        e
                                              er
                 oc




                                                                                         ies
                                  tio




                                                                               in
                                                       uc




                                                                                                    vic
                                                                  ne
                        in




                                              th
               Pr




                                                                            ur
                                   c




                                                                                           t
                                                     od
                        M




                                                                                        ili
                                             a




                                                                hi




                                                                                                    er
                                ru




                                                                          ct
                                          Le
            od




                                                   Pr




                                                                                     Ut
                                                              ac




                                                                                                  S
                                  t




                                                                           a
                               ns
          Fo




                                                                        uf




                                                                                               er
                                         l&




                                                            M
                                                 d




                                                                                   ic
                            Co




                 The chart shows the nine primary job sectors and
                                               oo




                                                                     an




                                                                                               th
                                                                                 bl
                                                         s&
          s&




                                       re




                                                                                          O
                                                                      M
                                              W




                                                                               Pu
                                     a




                 percentages of employment, in which Bosnia-Herzegovina
                                                       al
                                  pp
        es




                                                                   er


                                                                            &
                                                     et
      in




                                 A




                                                                th
                                                   M




                                                                             .


                 employers hired workers in Business Development
    us




                                                              O


                                                                          sp
   ib




                                                                       an




                 Program-supported businesses.
gr




                                                                     Tr
A




          Sectors                                             # of Jobs              Percent

1         Agribusiness & Food Proc.                           5,402                  21%
2         Mining                                              230                    1%
3         Construction                                        3,832                  15%
4         Apparel & Leather                                   4,585                  18%
5         Wood Products                                       5,140                  20%
6         Metals & Machinery                                  2,333                  9%
7         Other Manufacturing                                 3,200                  12%
8         Transp. & Public Utilities                          74                     0%
9         Other Services                                      1,339                  5%
          Total:                                              26,135                 100%
Source: Unaudited USAID/Bosnia-Herzegovina reported data


                                                                                                             Page 26 of 26
